Audit Report




OIG-11-028
SAFETY AND SOUNDNESS: Failed Bank Review of Imperial
Savings and Loan Association
November 15, 2010




Office of
Inspector General
Department of the Treasury
 
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                              November 15, 2010


             OIG-11-028

             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                  Susan L. Barron /s/
                                    Director, Banking Audits

             SUBJECT:               Failed Bank Review of Imperial Savings and Loan Association


             This memorandum presents the results of our review of the failure of Imperial
             Savings and Loan Association (Imperial). Imperial opened in 1929 and operated
             from a single office in Martinsville, Virginia. The Office of Thrift Supervision (OTS)
             closed Imperial and appointed the Federal Deposit Insurance Corporation (FDIC) as
             receiver on August 20, 2010. As of June 30, 2010, the thrift had $9.4 million in
             total assets. FDIC estimated that the loss to the Deposit Insurance Fund is
             $3.5 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Imperial that was limited to (1) ascertaining the grounds
             identified by OTS for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OTS reports of examination, and
             (3) interviewed OTS examination personnel.

             We conducted this performance audit during September 2010 in accordance with
             generally accepted government auditing standards. Those standards require that
             we plan and perform the audit to obtain sufficient, appropriate evidence to provide
             a reasonable basis for our findings and conclusions based on our audit objectives.
             We believe that the evidence obtained provides a reasonable basis for our findings
             and conclusions based on our audit objectives.
OIG-10-028
Page 2

Causes of Imperial’s Failure
OTS appointed FDIC as receiver based on the following grounds: (1) the thrift was
critically undercapitalized and (2) the thrift had substantially insufficient capital.

The primary causes of Imperial’s failure were its extremely small asset size, multi-
year operational losses, a failed merger, unsatisfactory management practices, poor
asset quality, and insufficient capital to support its operating expenses. The
generally slow local economy and cutbacks in the textile and furniture industries in
the thrift’s market area contributed to an increase in classified residential and
consumer loans. Furthermore, Imperial moved its office in 2007, which increased
operating expenses and created an additional strain on the bank’s finances. As the
thrift’s asset quality continued to deteriorate, its problem assets and the loan loss
provision significantly increased, which in turn, when combined with its high
operating expenses, contributed to net losses, significantly diminished capital, and
ultimately Imperial’s closure by OTS.


Conclusion
Based on our review of the causes of Imperial’s failure and the grounds identified
by OTS for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the thrift’s failure or the supervision exercised by OTS.
Accordingly, we have determined that a more in-depth review of the thrift’s failure
by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of Imperial’s failure summarized in
this memorandum are consistent with the information contained in its reports of
examinations and documents in support of the grounds for receivership. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or
Jai Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG-11-028

       Attachment 1
Management Response
                                                   OIG-11-028

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
